No. 20-1779
====================================================================================================

In The

Supreme Court of the United States

CARLOS A. MORALES-VÁZQUEZ,
Petitioner,
v.
ÓPTIMA SEGUROS,
Respondent.

On Petition for Writ of Certiorari to the United States Court of Appeals
for the First Circuit

UNOPPOSED MOTION FOR EXTENSION OF TIME TO
SUBMIT BRIEF IN OPPOSITION TO ISSUANCE OF WRIT
OF CERTIORARI

Fernando J. Collazo-Valle
Counsel of Record
Email: fcollazo@scvrlaw.com
Manuel Sosa-Báez
msosa@scvrlaw.com
Saldaña, Carvajal & Vélez-Rivé,
PSC
166 Avenida de la Constitución
San Juan, Puerto Rico 00901
Ph: 787-289-9250
Fax: 787-289-9253
Attorneys for Respondent, ÓPTIMA
SEGUROS

CORPORATE DISCLOSURE STATEMENT

QBE Seguros was acquired by Óptima Seguros in August 2019, through a transaction that
was subject to the oversight and approval of the Office of the Insurance Commissioner of Puerto
Rico. As part of said transaction, Óptima assumed the obligations corresponding to the policies
issued by QBE Seguros.
The new Board of Directors of the corporation authorized an amendment to the articles of
incorporation and corporate by-laws so that they reflect the new name of the corporation “Óptima
Seguros.” Óptima Seguros is a privately held corporation whose shares are not publicly traded.

UNOPPOSED MOTION FOR EXTENSION OF TIME TO SUBMIT BRIEF IN
OPPOSITION TO ISSUANCE OF WRIT OF CERTIORARI

TO THE HONORABLE COURT:
COMES NOW, Respondent, Óptima Seguros (hereinafter “Respondent”) and, through
the undersigned legal counsel, respectfully state and pray as follows:
1. Respondent’s Brief in Opposition to Issuance of Writ of Certiorari is due on July 23rd,
2021.
2. Though the undersigned has been working diligently on the drafting of said document, an
extension of sixty (60) days from the due date is respectfully requested in order to conclude it, up
to and including Tuesday, September 21st, 2021.
3. Though the undersigned is currently counsel of record for Respondent, Messrs. Manuel
Sosa-Báez and Ian P. Carvajal-Zarabozo are the attorneys in charge of the instant case since its
beginning. Respondent authorized them to continue handling the instant case, but their admission
to this Honorable Court’s Bar is still pending.
4. Respondent has a strong interest in having its position advanced by the same counsel at all
stages of the instant case, including oral argument if allowed, rather than being forced to seek
alternative counsel at a later stage. Protecting Respondent’s genuine interest of being represented
by able counsel who is fully knowledgeable of its case complies with Rule 30.4 of this Honorable
Court, will not work to the detriment of the Petitioner, and will not represent an undue delay for
this Honorable Court.
5. The undersigned consulted this request with opposing counsel prior to the filing of this
motion and they have no objection to it.

WHEREFORE, Respondent, Óptima Seguros, respectfully requests that the Court take
notice of the above, grant this motion, and extend the deadline to file Óptima’s Brief in Opposition
to Issuance of Writ of Certiorari up to, and including, Tuesday, September 21st, 2021.
Dated: July 20th, 2021.
RESPECTFULLY SUBMITTED,

S/ Fernando J. Collazo-Valle, Esq.
Counsel of Record
SALDANA, CARVAJAL & VELEZRIVE, PSC
166 Avenida de la Constitución
San Juan, Puerto Rico 00901
Ph: 787-289-9250
Fax: 787-289-9253
Email: fcollazo@scvrlaw.com
Manuel Sosa-Báez
msosa@scvrlaw.com
Ian P. Carvajal-Zarabozo
icarvajal@scvrlaw.com
Attorneys
Seguros

for

Respondent,

Óptima

